                          C
                     INSPE TOR GEN
                AL                E
           CI




                                            RA
       E
     SP




                                                L
                                                M
     TRO




                                            RA
           LE
      UB




                                       OG

                DA                          R
                     S S E T R E LI E F P




      AIG Remains in TARP as TARP’s
            Largest Investment




Special Inspector General for the Troubled Asset Relief Program
                                                       July 25, 2012
special inspector general I troubled asset relief program
                                                                                                                                        quarterly report to congress I July 25, 2012   1




Introduction
                                              i


Treasury’s largest TARP investment is American International Group, Inc., (“AIG”)
with Treasury holding 61% of AIG’s common stock as of June 30, 2012. Once the
world’s largest insurance company, AIG became a central figure in the fixed-income
securities market beginning in the 1990s by underwriting the risk on a number
of structured products, including volatile residential mortgage-backed securities
(“RMBS”). In 2008, AIG suffered a severe liquidity crisis and credit downgrades
due to exposures on risky derivatives related to mortgage-backed securities in its
subsidiary, AIG Financial Products Corporation (“AIGFP”). The Government,
first through the Federal Reserve Bank of New York (“FRBNY”), and later through
TARP’s Systemically Significant Failing Institutions (“SSFI”) program, bailed
out AIG at a price tag of $161 billion.ii Taxpayers are still owed more than half
of the original TARP investment — a significant $36 billion of the $67.8 billion
TARP investment. According to Treasury’s TARP books and records, taxpayers
have realized losses on the TARP investment from an accounting standpoint of
$5.5 billion on Treasury’s sale of AIG stock. However, given the January 2011
restructuring of the FRBNY and Treasury investment, according to Treasury, the
Government overall has made a gain thus far on the stock sales. According to
Treasury, this leaves $30.4 billion in TARP funds outstanding.1 In return for that
investment, Treasury holds 1.06 billion shares of AIG common stock (61% of AIG’s
common stock).
    Post-bailout, there have been several changes to AIG’s corporate governance,
sales of AIG’s subsidiaries and assets, and a reduction in AIG’s exposure to risky
derivatives. As controlling shareholder, Treasury has consented to or been consulted
on many of these changes. Largely as a result of assets sales, by the end of 2011,
assets had fallen from $1 trillion in 2007 to $552.4 billion.2 Revenue decreased
from $81.5 billion in 2007 to $64.3 billion in 2011.3 These are large numbers by
any measure. AIG remains one of the world’s largest insurance companies, and is
the third largest in the United States by assets.4 Although AIG has sold several for-
eign life insurance subsidiaries, it still has 219 subsidiaries (compared with 245 in
2007) and continues to operate in more than 130 countries.5 AIGFP continues to
exist, but with far less exposure, due to efforts by FRBNY to remove exposure and
efforts by AIG to further reduce exposure.
    AIG has operated in a changing regulatory environment. How it will be regulat-
ed in the future will not be known until Federal regulators designate which non-
bank financial companies are systemically important financial institutions (“SIFI”)
as called for in the Dodd-Frank Wall Street Reform and Consumer Protection
Act (“Dodd-Frank Act”).6 There is no stated time when this designation will be
made. For more than two years, AIG has had no consolidated banking regulator of
its non-insurance financial business. AIG continues to operate its non-insurance
financial business today, albeit with far less exposure than in 2008, in part due
to Government action. Before it was abolished, the Office of Thrift Supervision
i
    	This discussion is based on publicly available information. It is not an audit or evaluation under the Inspector General Act of 1978 as
      amended.
ii
    	SSFI had only one participant, AIG.
2   special inspector general I troubled asset relief program




                                           (“OTS”) was AIG’s consolidated regulator based on AIG’s ownership of a small
                                           thrift. OTS officials admitted failures in their regulation of AIG. If AIG is designat-
                                           ed a SIFI or recognized as a savings and loan holding company, the Federal Reserve
                                           will become AIG’s primary regulator and heightened regulatory requirements will
                                           apply. Regulatory oversight of AIG will be an enormous undertaking, presenting
                                           challenges in examination, enforcement, and supervision, particularly as it relates
                                           to risk, given AIG’s history. Effective, comprehensive, and rigorous regulation of
                                           AIG is vital to ensure that history does not repeat itself.




                                           Rise and Fall of AIG Prior to TARP
                                           In the years before the Government bailout, AIG had a solid reputation, reliable
                                           earnings, and was generally perceived to be one of the stronger companies in
                                           the United States.7 Core insurance operations encompassed general insurance,
                                           including property and casualty, commercial, industrial, and life insurance,
                                           including annuities and retirement services. Insurance operations (including
                                           general insurance, life insurance, and retirement services) accounted for nearly
                                           90% of AIG’s revenue, which is still the case today. Approximately half of the
                                           company’s revenue during this period came from outside the United States,
                                           largely from Asia. For decades, the company’s AAA credit rating helped bolster its
                                           insurance operations and allowed AIG to use its low cost of funds as leverage to
                                           boost non-insurance lines, including aircraft leasing and consumer finance.
                                               AIG’s credit rating also increased its attractiveness as a counterparty in capi-
                                           tal markets, helping the company expand its product base. Over the years, AIG
                                           expanded from insurance into other financial businesses. One of these was AIGFP,
                                           a subsidiary created in 1987 to conduct sophisticated financial market trades, many
                                           involving complex derivatives. Derivatives are financial instruments that can be
                                           used to hedge risks or to bet on market price trends, and are typically derived from
                                           underlying assets such as stocks, bonds, loans, currencies, or commodities. By the
                                           1990s, AIGFP was a vital part of the fixed-income securities market as it related to
                                           RMBS and commercial mortgage-backed securities (“CMBS”). RMBS are finan-
                                           cial instruments backed by a pool of residential mortgage loans; CMBS are backed
                                           by a pool of commercial mortgage loans. The loans are packaged into bundles of
                                           loans sharing similar characteristics, and then sold to investors. This process, called
                                           securitization, removes the loans from the balance sheets of banks and mortgage
                                           lenders and gives them cash to issue new loans. The RMBS and CMBS were often
                                           further pooled into bundles known as collateralized debt obligations (“CDOs”).
                                               In 1998, AIGFP began to sell insurance-like contracts called credit default
                                           swaps (“CDS”) that provided protection to investors against losses from RMBS
                                           and CMBS that had been bundled into CDOs. The firm purchasing the CDS (the
                                           “counterparty” to AIG), would pay AIG regular insurance-like premiums and in
                                           return AIG would pay the counterparty if the CDO should default. Due to AIG’s
                                           AAA rating, AIG was able to enter into these insurance-like contracts without
                                                                                  quarterly report to congress I July 25, 2012   3




posting any collateral, a benefit not available to lower-rated firms. Included in these
CDS contracts was a provision that, should AIG’s credit rating be downgraded, AIG
would be required to post collateral to ensure payment on these contracts. In addi-
tion, if the value of the securities that AIG was insuring fell, AIG was contractually
obligated to produce quickly the collateral to its counterparty to make up for the
difference in the drop in value of the security. That collateral could be either cash
or AAA-rated securities. AIGFP sold CDS to firms that bought or sold mortgages or
CDOs and to unrelated investors.
     AIG had grown into a global giant with a top-tier AAA credit rating largely
under the direction of one man, Hank Greenberg, who was chief executive officer
from 1968 to 2005.8 Beginning in 2004, however, AIG became embroiled in a se-
ries of fraud investigations conducted by the Securities and Exchange Commission
(“SEC”), the Department of Justice, the New York State Insurance Department,
and the New York State Attorney General’s Office. Amid those investigations, AIG’s
board forced Greenberg to step down on March 14, 2005.
     In early May 2005, AIG restated five years of its financial results, cutting $3.9
billion off reported profit over that period and reducing its book value by $2.7
billion.9 Credit rating agencies began questioning AIG’s creditworthiness, and in
March and June of 2005, Standard & Poor’s and Moody’s Investors Service down-
graded AIG’s AAA rating.10 An S&P executive testified to Congress that the down-
grade was due to “the company’s involvement in a number of questionable financial
transactions.”11
     Starting in the third quarter of 2007 and continuing through 2008, AIG’s
financial condition deteriorated, causing a decline in market confidence that, in
turn, brought downgrades of AIG’s credit rating and nearly caused the company’s
collapse. The trigger and primary cause was AIGFP.
     While AIGFP’s operating income grew from $131 million in 1994 to $949
million in 2006, closely tracking the boom in the CDS market and the overall
derivatives market, the risk involved in this business turned out to be dramatically
disproportionate to the income produced.12 As of June 2008, AIG provided more
than $400 billion of credit protection, primarily to banks, through AIGFP CDS.13
AIG was exposed to the underlying securities, which were composed largely of
subprime mortgages in CDOs that were initially rated AAA.
     When the U.S. residential mortgage market deteriorated, the securities underly-
ing AIGFP’s CDS contracts turned toxic as home prices tumbled and defaults sky-
rocketed. The value of the underlying securities plummeted, and the credit ratings
of those securities were downgraded. In the fourth quarter of 2007, counterparties
began making significant collateral calls to AIG, which only continued. With its
credit no longer rated AAA, AIG posted collateral in cash. According to AIG’s 2008
Form 10-K, “From July 1, 2008, to August 31, 2008, the continuing decline in
value of the super senior CDO securities protected by AIGFP’s super senior CDS
portfolio, together with rating downgrades of such CDO securities, resulted in
AIGFP posting additional collateral in an aggregate net amount of $5.9 billion. By
the beginning of September 2008, these collateral postings and securities lending
requirements were placing increasing stress on AIG parent’s liquidity.”14
4   special inspector general I troubled asset relief program




                                               AIG was also taking risks with the assets of its life insurance subsidiaries
                                           through its securities-lending program. AIG made short-term loans of securities
                                           it owned and used the fees it earned on those loans to invest in RMBS. The value
                                           of these and other AIG real estate-related investments also declined sharply, and
                                           contributed to further downgrades of AIG’s credit ratings in May 2008. The prob-
                                           lems in AIGFP exacerbated the problems in securities lending, and vice versa, as
                                           collateral demands from both sets of counterparties left the company struggling to
                                           find cash. In September 2008, AIG’s credit ratings were downgraded again, trigger-
                                           ing additional collateral calls and cash requirements in excess of $20 billion.15 AIG,
                                           facing an acute liquidity crisis, was on the brink of collapse, unable to access credit
                                           in the private markets and bleeding cash.
                                               The Congressional Oversight Panel (“COP”) found that AIG was brought down
                                           by the company’s “insatiable appetite for risk and blindness to its own liabilities.”16
                                           According to the Financial Crisis Inquiry Commission (“FCIC”), “AIG failed and
                                           was rescued by the Government primarily because its enormous sales of credit
                                           default swaps were made without putting up initial collateral, setting aside capital
                                           reserves, or hedging its exposure — a profound failure in corporate governance,
                                           particularly its risk management practices.”17
                                               AIG sought and received Government support through a revolving credit facility
                                           from FRBNY and later TARP funding from Treasury. Officials involved in the res-
                                           cue maintained that if AIG went under, it would have taken down other financial
                                           institutions and caused havoc around the world.18 Then-Treasury Secretary Henry
                                           M. Paulson wrote in his memoir, “An AIG collapse would be much more devas-
                                           tating than the Lehman failure because of its size and the damage it would do to
                                           millions of individuals whose retirement accounts it insured.”19




                                           Changes at AIG After the Government
                                           Bailout
                                           Since the Government bailout, AIG has undergone some key changes.iii Some were
                                           a direct result of the bailout, including a change in AIG’s capital structure such that
                                           the Government took an ownership interest in AIG that was eventually converted
                                           to common stock. AIG’s CEO, chairman of the board, and other management and
                                           directors have changed, leaving only a few from pre-bailout times. FRBNY created
                                           its Maiden Lane II and III investment vehicles to remove a large part of AIG’s
                                           liquidity strain caused by its securities-lending portfolio and AIGFP’s exposure to
                                           RMBS under its CDS contracts. AIG has sold a number of subsidiaries, primarily
                                           foreign life insurance subsidiaries, using proceeds to pay down what was owed to
                                           the Government.




                                             	This discussion does not attempt to chronicle all of the changes at AIG while it has been in TARP.
                                           iii
                                                                                   quarterly report to congress I July 25, 2012   5




Changes to Balance Sheet As a Result of the Bailout
The bailout and subsequent restructuring significantly altered AIG’s capital
structure. Prior to the bailout, AIG’s balance sheet consisted of $95.8 billion in
equity and $952.5 billion in total liabilities.20 For the year ended December 31,
2011, AIG’s balance sheet consisted of approximately $105 billion in equity and
$441.4 billion in total liabilities.21 In the bailout, the Government injected capital
into AIG and became AIG’s largest shareholder.

Changes to AIG’s Corporate Governance After the Government Bailout
There have been substantial changes to AIG’s corporate governance while the
Government has been AIG’s largest shareholder. Changes in management after
the Government bailout included a new CEO, Edward M. Liddy, a former Allstate
Corporation CEO, who was appointed in September 2008 after discussions
with Treasury. Less than a year after he became CEO, Liddy resigned. Liddy was
succeeded in August 2009 by Robert H. Benmosche, former CEO of MetLife,
Inc. As of June 30, 2012, out of AIG’s ten executives listed in its Form 10-K, only
four were executives with the company prior to TARP. They are William Dooley,
executive vice president of investments and financial services, who has been with
AIG since 1992; David Herzog, chief financial officer, who was hired in 2005;
Brian Schreiber, treasurer, who has been an AIG executive since 2002; and Jay
Wintrob, executive vice president of domestic life and retirement services, who has
been with AIG since 1999.22
    There have been significant changes to AIG’s board while the company has
been in TARP. Although Greenberg had long been gone from AIG by the time of
the bailout, several board members appointed during Greenberg’s tenure re-
mained.23 During the nearly four decades that Greenberg ran AIG, the company’s
board of directors played a minor role in governing the company, according to cor-
porate governance expert Jennifer S. Taub, an associate law professor at Vermont
Law School.24 In the boardroom, there were as many as nine AIG executives seated
on the company’s 20-member board of directors in 2002.25 In 2008, the year of the
bailout, five AIG directors resigned. Two more followed in May 2009, while two
others did not seek re-election.26 Chairman Harvey Golub resigned in July 2010
and was replaced by AIG director Steve Miller, a former chairman of auto parts
manufacturer Delphi Corp.27
    AIG’s annual proxy mailing to shareholders ahead of its 2009 annual meeting
included a new set of corporate governance guidelines adopted by the board. The
guidelines trimmed the board size to between 8 and 12 directors and described that
a lead independent director would annually review the CEO’s performance.28
    As of June 30, 2012, AIG’s 12-member board includes only two people who
have been directors since before TARP.28 George L. Miles, Jr., chairman of Chester
Engineers, Inc., joined the AIG board in 2005 and Suzanne Nora Johnson, for-
mer vice chairman of Goldman Sachs Group, became a director in July 2008.
Other current board members include fund managers in charge of Oak Street
Management Co. and Marblegate Asset Management; the former head of KPMG
LLP’s banking and finance practice; and the ex-CEO of Sears, Roebuck and Co.
6   special inspector general I troubled asset relief program




                                           Two other board directors have significant aircraft industry experience: one is
                                           the CEO of aircraft maker Hawker Beechcraft, Inc., and the other once headed
                                           Northwest Airlines Corp.30
                                              In April 2010, after AIG had missed five TARP dividend payments, Treasury
                                           exercised its right to appoint two directors to the AIG board.31 Treasury named
                                           Ronald Rittenmeyer, head of a private equity firm, and Donald Layton, a veteran of
                                           JPMorgan Chase.32 Layton resigned from the AIG board in May 2012 to become
                                           CEO of Freddie Mac.33 On July 11, 2012, a retired AIG director, Morris W. Offit,
                                           was re-elected to the board.34

                                           No Changes to AIG’s Outside Independent Auditor While in TARP
                                           AIG has not changed its outside auditor while it has been in TARP.
                                           PricewaterhouseCoopers has been AIG’s auditor for decades and continues to serve
                                           in that role.

                                           FRBNY Took Significant Mortgage-Backed Securities Off AIG’s Books
                                           AIG held nearly $141 billion worth of RMBS, CMBS, derivatives, and asset-
                                           backed securities investments on its books at the end of 2007.35 The holdings were
                                           slashed to $34.6 billion at the end of 2010, in part due to the actions taken by
                                           FRBNY.36 The 2008 liquidity pressures on AIG were concentrated in two areas,
                                           securities lending and CDS, insurance-like protection on CDOs (generally bundles
                                           of RMBS). As part of the Federal bailout, most of the securities involved in those
                                           areas were unloaded into two newly created special purpose vehicles: Maiden
                                           Lane II (which held the RMBS associated with AIG’s securities-lending program)
                                           and Maiden Lane III (which held the underlying CDO securities associated with
                                           the CDS). Maiden Lane is the street behind the FRBNY building in the heart of
                                           Manhattan’s financial district.
                                                FRBNY made a $19.5 billion loan to Maiden Lane II which was used to
                                           purchase subprime RMBS in AIG’s securities-lending portfolio that FRBNY put
                                           into Maiden Lane II. FRBNY had sole control over Maiden Lane II and sales of
                                           the RMBS in it.37 Last year, AIG offered to buy the entire portfolio for $15.7
                                           billion. The FRBNY declined and instead held a series of auctions for the assets.38
                                           Investment banks that won the auctions turned around and re-sold the securities
                                           to clients, including AIG.
                                                The FRBNY also created Maiden Lane III as a vehicle to buy from AIG’s
                                           counterparties the CDOs that AIGFP had insured through CDS. The purchase
                                           of the underlying CDOs terminated AIGFP’s obligations under the CDS con-
                                           tracts. SIGTARP previously reported in its audit, “Factors Affecting Efforts to
                                           Limit Payments to AIG Counterparties,” issued in November 2009, that “FRBNY
                                           decided to pay the counterparties the full market value of the CDOs, which, when
                                           combined with the already posted collateral, meant that the counterparties were
                                           effectively paid full face (or par) value of the credit default swaps, an amount far
                                           above their market value at the time.”39 The face value amount of the securities was
                                           $62.1 billion. AIG’s counterparties retained $35 billion in collateral posted by AIG
                                                                                 quarterly report to congress I July 25, 2012                            7




and were paid an additional $26.8 billion.40 The FRBNY began auctioning securi-              Figure 3.1
ties from Maiden Lane III in April 2012.                                                     AIG’S MAJOR RECENT FOREIGN
    Maiden Lane III did not remove all of AIGFP’s exposure on CDS contracts. For             ASSET SALES
example, FRBNY did not purchase synthetic CDOs, which are CDOs backed by                     Nan Shan: On August 18, 2011, AIG sold
CDS rather than real estate loans. AIGFP still had about $302 billion in exposure            its 97.6% interest in Nan Shan Life Insurance
                                                                                             Company, Ltd., its Taiwanese life insurance unit,
to CDS on its books on December 31, 2008, after Maiden Lane III was created.41               to Taiwan-based Ruen Chen Investment Holding
                                                                                             Co., Ltd. for $2.2 billion. Established in 1963, Nan
                                                                                             Shan is the largest life insurer in Taiwan by total
AIG Sales of Certain Foreign Life Insurance Subsidiaries and                                 book value and the third largest by total premiums.
Other Assets                                                                                 Star and Edison: On February 1, 2011, AIG sold
While in TARP, AIG has sold several of its foreign life insurance subsidiaries               its Japan-based life insurance subsidiaries, AIG
                                                                                             Star Life Insurance Co., Ltd., and AIG Edison Life
including Nan Shan, AIG Star Life Insurance Co., ALICO, and AIA. These                       Insurance Company, to Prudential Financial, Inc.,
transactions were with the consent of or in consultation with Treasury as AIG’s              for a total of $4.8 billion, made up of $4.2 billion
                                                                                             in cash and $0.6 billion in the assumption of third-
controlling shareholder. Some of the transactions resulted in proceeds that went             party debt. Star and Edison offer life, medical, and
to pay down amounts owed to the Government as part of a plan to recapitalize the             annuity products to individuals and groups.

Government’s interest in AIG. At the end of 2011, about 14% of AIG’s consolidated            ALICO: On November 1, 2010, AIG sold ALICO,
assets were located outside the United States and Canada, down from 37% in                   a foreign life insurance company with operations
                                                                                             on four continents, to MetLife for approximately
2008.42 Figure 3.1 shows recent major foreign divestitures of $1 billion or more.            $16.2 billion ($7.2 billion in cash and the remain-
                                                                                             der in securities of MetLife).
    On the one hand, these transactions may be key steps in AIG’s restructuring
that have allowed AIG to meet working capital needs and to pay down the                      AIA: On October 29, 2010, AIG sold, in an initial
                                                                                             public offering, 8.08 billion shares (or 67%) of
Government. As Benmosche stated in March 2010, “Clearly, we will be a smaller                Pan-Asian life insurer AIA for approximately $20.5
and more focused company than in the past. The only way we can repay taxpayers               billion. On March 8, 2012, AIG sold 1.72 billion
                                                                                             shares of AIA to institutional investors for approxi-
is to divest parts of the organization, and we are.”43                                       mately $6 billion.
    However, AIG’s sales of ALICO and AIA, key pieces of AIG’s foreign life
                                                                                             AIGFP Energy and Infrastructure Portfolio: On
insurance operations, meant losing what Benmosche described as some of “the                  August 11, 2009, AIG sold its remaining energy
company’s crown jewels.”44 In 2010, AIG sold ALICO, one of the world’s largest               and infrastructure investment assets, including
                                                                                             three Spanish solar power plants along with sev-
and most diversified international life insurance companies, to MetLife, Inc. The            eral U.S. assets, realizing aggregate net proceeds
sale included the company’s vast distribution network throughout four continents,            in excess of $1.9 billion. This disposition effort
                                                                                             began during the fall of 2008.
including agents, brokers and financial institutions; 12,500 employees across
                                                                                             AIG Otemachi Building in Tokyo: On May 28,
more than 50 countries; and 20 million customers worldwide. The significance of              2009, AIG sold its prime real estate holding in
ALICO’s loss to AIG is best shown by the numbers. In 2008, ALICO generated                   Tokyo, the AIG Otemachi Building and property, for
                                                                                             approximately $1.2 billion in cash to Nippon Life
revenue of $32.3 billion, or approximately one-third of AIG’s revenue that year.45           Insurance Company.
The sale of AIA Group, Limited (“AIA”) entailed AIG parting ways with a leading              Sources: AIG, Press Release, “AIG Reduces United States
Pan-Asian life insurance organization that traces its roots in the Asia-Pacific region       Treasury Investment in AIG Subsidiary by Approximately $2
                                                                                             Billion,” 8/18/2011, www.aigcorporate.com/newsroom/
back more than 90 years. The sale included all of the AIA companies operating                index.html, accessed 6/28/2012; AIG, Press Release, “AIG
                                                                                             Enters Into Agreement to Sell Nan Shan to Taiwan-Based
in 15 geographic markets across the Asia-Pacific region, including the company’s             Consortium Led by the Roentex Group,” 1/12/2011,
                                                                                             www.aigcorporate.com/newsroom/index.html, accessed
international network of more than 320,000 agents and approximately 23,500                   6/29/2012; AIG, Press Release, “AIG Completes Sale
employees.46 AIA accounted for $9.3 billion of insurance premiums in 2010, about             of Star and Edison Companies,” 2/1/2011, www.
                                                                                             aigcorporate.com/newsroom/index.html, accessed
12% of AIG’s revenue that year.47                                                            6/28/2012; AIG, Press Release, “AIG Raises Nearly
                                                                                             $37 Billion in Two Transactions to Repay Government,”
    In addition to these major transactions, AIG has sold its own Manhattan                  11/1/2010, www.aigcorporate.com/newsroom/index.
                                                                                             html, accessed 6/28/2012; AIG, Press Release, “AIG
headquarters building; a commodity index; a U.S. rail services leasing unit; its             Announces Pricing of Sale of Ordinary Shares of AIA Group
                                                                                             Limited,” 3/5/2012, www.aigcorporate.com/newsroom/
U.S. personal auto insurance business; a German marine insurer; consumer                     index.html, accessed 6/28/2012; AIG, Press Release, “AIG
finance businesses in Mexico, Argentina, and Thailand; life insurance operations             Financial Products Corp. Completes Disposition of Energy
                                                                                             and Infrastructure Investment Portfolio,” 8/11/2009,
in Canada, Japan, the Philippines, and Taiwan; and 80% of its consumer credit                www.aigcorporate.com/newsroom/index.html, accessed
                                                                                             6/28/2012; AIG, Press Release, “AIG Completes Sale of
provider, American General Finance.                                                          Prime Tokyo Real Estate Asset to Nippon Life Insurance
                                                                                             Company,” 5/28/2009, www.aigcorporate.com/
                                                                                             newsroom/index.html, accessed 6/28/2012.
8   special inspector general I troubled asset relief program




                                           AIG’s Current Businesses
                                           For the year ending December 31, 2011, AIG reported the results of its businesses
                                           through four segments: Chartis, which writes policies for foreign property/casualty,
                                           commercial/industrial, and consumer insurance; SunAmerica Financial Group,
                                           which focuses on U.S. life insurance, retirement services, and annuities; Aircraft
                                           Leasing; and “Other Operations,” which includes the remaining derivatives
                                           portfolio from AIGFP, other corporate investment operations, and AIG’s insurance
                                           for residential mortgage lenders.48 Insurance continues to account for almost 90%
                                           of the company’s revenue, as was generally the case historically. Aircraft leasing
                                           accounts for 7% and other operations for 6%.49
                                               In TARP, AIG has sold certain subsidiaries and other assets and added several
                                           operations, although they are only a fraction of the size of those that it shed. Most
                                           notably, through transactions in 2010 and 2011, AIG increased its ownership stake
                                           in Japanese insurer Fuji Fire & Marine Insurance Company, Limited, from 41.7%
                                           to 100%.50 Fuji is now part of Chartis, and largely because of that acquisition,
                                           consumer insurance accounted for 38% of Chartis’s business in 2011, up from
                                           30% in 2009.51 The company has also acquired financial assets, including mortgage
                                           securities.
                                               Table 3.1. provides a snapshot of key AIG financial information from 2007 to
                                           2011.

                                           TABLE 3.1
                                                AIG FINANCIAL HIGHLIGHTS                         ($ BILLIONS EXCEPT FOR EARNINGS PER SHARE AND RETURN
                                                ON AVERAGE EQUITY)

                                                                                       2007                  2008                  2009                  2010                  2011
                                                Assets                            $1,048.4                 $860.4                $847.6                $675.6                $552.4
                                                Liabilities                            952.5                 807.7                 748.6                 568.4                441.4
                                                Revenue                                  81.5                  (6.8)                 75.4                 77.5                  64.3
                                                Net income                                 7.5             (100.4)                 (12.3)                 12.3                  21.3
                                                Earnings per
                                                                                       47.73             (756.85)                (90.48)                 14.98                11.01
                                                share
                                                Return on
                                                                                        7.2%              -130.7%                 -18.2%                11.8%                    24%
                                                average equity
                                                Notes: Earnings per share is fully diluted, after extraordinary items. Return on average equity is net income as a percent of average
                                                equity.

                                                Source: SNL Financial; all data reflect company restatements of results as of April 20, 2012.



                                           Chartis and SunAmerica
                                           Chartis is AIG’s largest subsidiary. Chartis generated $40.7 billion in 2011 revenue
                                           primarily through the sale of property and casualty insurance policies to companies
                                           around the world for natural disasters and industrial accidents.iv Chartis has had
                                           four consecutive years of underwriting losses, which in part reflect the severity of


                                            	It also wrote policies to protect companies and wealthy individuals from specialized risks such as computer hackers, executive
                                           iv

                                              kidnappings, yachting mishaps, crisis management, and shareholder lawsuits.
                                                                                quarterly report to congress I July 25, 2012   9




recent disasters.52 The U.S. property/casualty industry saw underwriting net losses
more than triple to $36.5 billion in 2011 from the previous year after a string of
costly catastrophes.53 Chartis had $3.2 billion in underwriting losses in 2011 from
catastrophes including Japan’s worst-ever earthquake, damages in the U.S. from
Hurricane Irene and tornadoes, and deadly flooding in Thailand.54
    In its smaller consumer business, Chartis is using direct marketing to expand
sales of health, accident, and auto insurance in Brazil, Mexico, United Arab
Emirates, Turkey, Vietnam, Indonesia, India, and China. Revenue from con-
sumer premiums rose to $3.6 billion in the 2012 first quarter, accounting for 41%
of Chartis’s sales. Part of the increase was due to Chartis’s 2010 acquisition of
Japanese insurer Fuji, which sells mainly to Asian consumers. Meanwhile, com-
mercial premiums declined to $5.2 billion in the first quarter of 2012, down about
$500 million from a year ago.55
    AIG subsidiary SunAmerica sells bread-and-butter life and health insurance
policies and retirement annuities to U.S. clients. SunAmerica also offers prod-
ucts such as brokerage services, financial planning, and retail mutual funds.
SunAmerica’s revenue of $15.3 billion in 2011 accounted for 24% of AIG’s total
sales.56

Investments by Chartis and SunAmerica
Like other insurers, Chartis and SunAmerica invest insurance premium payments
from customers to generate income for paying claims and benefits. Life insurers
such as SunAmerica have a relatively predictable business and can invest in
fixed maturity securities that match up with estimated payouts to customers.
SunAmerica also invests in private equity funds, hedge funds, and affordable
housing partnerships. Property insurers contend with unpredictable natural
disasters such as earthquakes and hurricanes. While according to AIG, Chartis
invests in relatively safe fixed-income securities such as municipal bonds, it also
needs strong investment income to offset insurance policy underwriting losses.
In recent years, it has lost money on underwriting, but attempted to make it up
on profits from investments.57 Average investments at Chartis and SunAmerica
have steadily increased from 2009 to 2011. In 2011, Chartis and SunAmerica
together held average investments of $286.3 billion, up 12% from 2010 holdings.58
However, pre-tax returns on those investments have fluctuated. Their combined
portfolio produced $14.2 billion in net investment income in 2011, a decline of
6% from the previous year.59

Aircraft Leasing
AIG’s International Lease Finance Corporation (“ILFC”) leases commercial jet
aircraft to foreign and domestic airlines. Revenue in the business has been steadily
decreasing since 2009 — it fell 4% from 2009 to 2010, and then another 6% from
2010 to 2011.60 The business’s loss deepened from $729 million in 2010 to $1
billion in 2011, which included write-downs in the value of older aircraft.61
10   special inspector general I troubled asset relief program




                                            Mortgage-Backed Securities
                                            According to AIG, to earn the higher returns needed to pay claims and benefits to
                                            insurance customers, AIG has returned to investing in mortgage-backed securities,
                                            although at a much smaller level than prior to TARP.62 From December 31, 2010,
                                            to March 31, 2012, AIG had more than doubled its CMBS and non-agency RMBS
                                            holdings to $28.4 billion.63 That did not include AIG’s April 2012 purchase of $600
                                            million worth of CDOs that had been in the Maiden Lane III portfolio.64

                                            AIGFP and Other Securities Lending and CDS
                                            AIG continues to maintain a portfolio of CDS and continues to engage in securities
                                            lending, albeit much smaller than prior to TARP. AIGFP continues to exist and
                                            was folded into the company’s Global Capital Markets business along with a
                                            separate unit, AIG Markets Inc., which writes derivatives on behalf of other AIG
                                            subsidiaries.65
                                                AIGFP has sharply reduced its CDS portfolio to one-tenth its former size, from
                                            about $2 trillion in net notional value in 2008 to about $168 billion in net notional
                                            value at the end of its 2012 first quarter.66 Net notional value is the total risk expo-
                                            sure for a transaction, or the maximum amount of money that would be transferred
                                            from the seller of protection to the buyer in the event of a credit default.67 This
                                            reduction in exposure is due in part to FRBNY’s actions with Maiden Lane III. The
                                            size of AIGFP’s trading book is greatly diminished, but it may come as a surprise
                                            to some that any of AIGFP still exists at all. Former AIG CEO Edward M. Liddy
                                            told Congress in 2009 he was weighing a number of options to quickly shut down
                                            AIGFP and “break apart these trading books.”68 His successor and current CEO,
                                            Robert H. Benmosche, has been winding down some of AIGFP’s trading books
                                            over time.69 Benmosche hired Peter Hancock, the founder of JPMorgan’s global
                                            derivatives group and now the head of AIG’s Chartis unit, to manage what AIG has
                                            described as the “de-risking” of AIGFP.70
                                                AIG’s 2008 Form 10-K stated that the orderly wind-down of AIGFP would
                                            take a substantial period of time. An AIG presentation about its first quarter 2012
                                            results noted that AIGFP may be around for at least seven more years until its
                                            final contracts expire.71 The company says it manages the AIGFP portfolio “for
                                            maximum profit contribution and limited risk.”72 According to AIG, active trading
                                            wound down in mid-2011, and AIGFP now enters into new derivative transactions
                                            only to hedge its portfolio, which according to AIG means to protect that portfolio
                                            by making an offsetting investment in a related security.73 Its non-AIGFP divisions
                                            also use derivatives to hedge against risk. According to AIG, “Although the remain-
                                            ing AIGFP derivatives portfolio may experience periodic fair value volatility, the
                                            portfolio consists predominantly of transactions AIG believes are of low complexity,
                                            low risk, supportive of AIG’s risk management objectives, or not economically ap-
                                            propriate to unwind based on a cost versus benefit analysis.”74 Table 3.2 shows how
                                            AIGFP’s portfolio of investments has changed since 2008.
                                                                                                                          quarterly report to congress I July 25, 2012   11




TABLE 3.2
 AIGFP’s Portfolio 2008-2012                              ($ BILLIONS)

                        12/31/2008               12/31/2009         12/31/2010        12/31/2011             3/31/2012
 Market
                                ~$1,450              Not reported    Not reported                $131                    $126
 derivatives
 Stable value
                                       ~40           Not reported    Not reported                   20                     19
 wraps
 Corporate
                                       ~52                    22               12                   12                     12
 debt CDS
 Regulatory
                                     ~245                    150               38                     7                     6
 capital CDS
 Multi-sector
                                       ~13                     8                 7                    6                     5
 CDS
 Total                         ~$1,800                     $940          $352.8                 $176                     $168
 Notes: Net notional value in billions of dollars.

 Sources: AIG, conference call presentations, May 4, 2012, February 24, 2012, and February 25, 2011, www.aigcorporate.
 com/investors/financial_reports.html, accessed 7/21/2012; AIG 10-K for 2010, 2/24/2011, www.sec.gov/Archives/edgar/
 data/5272/000104746911001283/0001047469-11-001283-index.htm, accessed 6/28/2012.



     AIGFP’s remaining portfolio includes these components:

•	 The largest group of securities is $126 billion in what the company describes
   as “market derivatives” that are fully hedged. Managed by AIG’s Global Capital
   Markets Group, about three-fourths of these instruments are intended to
   protect AIG affiliate companies’ own assets, while the others are “legacy” third-
   party client trades left from before the bailout.75
•	 Next in size is $19 billion in AIGFP securities meant to smooth out interest
   rate volatility in stable value funds, which are similar to money market funds
   but offer higher returns. AIGFP’s instruments, known as stable value wraps,
   help fixed-income investments in stable value funds maintain book value even if
   market value drops.76 On May 4, 2012, AIG said it expected to move the stable
   value wraps to one of its insurance entities this year.77
•	 Another component of the AIGFP portfolio is $12 billion in CDS contracts
   written for bundles of corporate debt.78
•	 A dwindling number of CDS contracts that AIGFP tailored specifically for
   European banks also remain. Banks bought these regulatory capital swaps as
   protection from potential losses on mortgages and corporate loans so they could
   hold less capital and still comply with regulatory requirements.79
•	 AIGFP’s portfolio includes $5 billion in synthetic CDOs not placed into Maiden
   Lane III.80 AIG said this set of securities “managed to retain significant future
   upside” for additional profits.

   According to AIG’s 2011 Form 10-K, “The senior management of AIGFP
reports the results of its operations to and reviews future strategies with AIG’s
senior management.”81 The Form 10-K provided details about some components
12   special inspector general I troubled asset relief program




                                            of the AIGFP portfolio such as a breakdown of credit ratings, origination years of
                                            RMBS, and risk sensitivity of remaining swaps.
                                                AIG began edging back into securities lending in 2011, when Chartis began
                                            lending municipal bonds and requiring counterparties to put up 102% collateral.82
                                            SunAmerica began securities lending in early 2012.83 As of March 31, 2012, AIG
                                            had securities valued at $8.9 billion pledged in securities-lending programs.84 That
                                            compares with about $76 billion at the end of 2007 prior to the TARP injection.85




                                            AIG’s Changing Regulatory Environment
                                            In the years leading up to its near collapse, AIG’s massive size, interconnectedness,
                                            geographic reach, and product breadth of operations were not matched by a
                                            coherent U.S. regulatory structure to oversee its business. A combination of state,
                                            international, and Federal authorities regulate AIG and its subsidiaries. There is
                                            currently no Federal banking regulator with responsibility for overseeing AIG’s non-
                                            insurance financial businesses.
                                                AIG’s domestic, life, and property/casualty insurance subsidiaries are regulated
                                            by the state insurance regulators or foreign regulators where these companies are
                                            domiciled or operate.v The state insurance regulators examine the parent company
                                            only to the extent that it relates to the insurance subsidiaries.vi Foreign insurance
                                            regulators, operating under their own countries’ laws, have jurisdiction over AIG’s
                                            overseas insurance subsidiaries.
                                                From 1999 to March 2010, OTS was the supervisor of AIG’s non-insurance
                                            financial business because AIG was permitted to be considered a savings and loan
                                            holding company due to its ownership of a small Wilmington, Delaware, thrift, AIG
                                            Federal Savings Bank, which accounted for a tiny piece of its operations. This was
                                            significant because the European Union required foreign companies doing busi-
                                            ness in Europe to have the equivalent of a “consolidated supervisor” in their home
                                            country. Starting in 2004, OTS had worked to successfully persuade the European
                                            Union that it was capable of performing this role.86 AIG was subject to OTS regula-
                                            tion, examination, supervision, and reporting requirements. OTS also had enforce-
                                            ment authority over AIG and its subsidiaries and could restrict or prohibit activities
                                            that were a serious risk to the financial safety, soundness, or stability of AIG Federal
                                            Savings Bank. The Office of the Comptroller of the Currency is now responsible
                                            for regulating AIG Federal Savings Bank, but not the rest of the company. Since
                                            2010, AIG has been in discussions with European regulators concerning consoli-
                                            dated regulation.87



                                            v
                                             	The primary state insurance regulators include New York, Pennsylvania, and Texas.
                                             	Though examinations of the AIG parent were limited to how it related to the subsidiaries, the regulators typically obtained additional
                                            vi

                                              information about the parent through informal channels, such as regular communications with parent company management and review
                                              of public filings. (Congressional Oversight Panel, “June Oversight Report: The AIG Rescue, Its Impact on Markets, and the Government’s
                                              Exit Strategy,” 6/10/2010, p. 23, http://cybercemetery.unt.edu/archive/cop/20110401232818/http://cop.senate.gov/reports/
                                              library/report-061010-cop.cfm, accessed 6/28/2012.)
                                                                                 quarterly report to congress I July 25, 2012   13




     The Federal Reserve has not regulated AIG either before or after the bailout. Its
involvement with the company was instead through the Federal Reserve’s responsi-
bility to maintain financial system stability and contain systemic risk that may arise
in financial markets.
     The significant interconnectedness and complexity of AIG’s businesses, and the
lack of effective regulatory oversight of AIG’s financial business, were factors in
AIG’s near collapse and subsequent bailout. Despite what turned out to be AIG’s
key role as a financial institution, its only U.S. Federal banking regulator was OTS.
AIGFP fell outside the scope of the state insurance regulators, even though its
CDS had a function similar to insurance, and AIGFP’s CDS trades fell outside
OTS’s regulatory authority. This regulatory structure meant there was no compre-
hensive examination and regulation of CDS activity within AIGFP. Certain other
financial operations inside AIG — including capital markets, consumer finance,
and aircraft leasing — were regulated on a piecemeal basis or escaped regulation
entirely.
     As the FCIC and COP concluded in separate reports to Congress, OTS failed
in its role as AIG’s consolidated supervisor; it neither understood its responsibility
nor had the tools to oversee the entire company’s complex financial services,
including AIGFP. As AIG’s holding company regulator, OTS was charged with over-
seeing the parent and had the power and the duty to spot and require the company
to curtail its risk, but according to COP, it “failed to do so.”88 At a March 2009
congressional hearing, then-Acting OTS Director Scott Polakoff acknowledged that
his agency failed to recognize the extent of the liquidity risk in AIGFP’s CDS port-
folio. In addition, John Reich, a former OTS director, told the FCIC that as late as
September 2008, he had “no clue — no idea — what [AIG’s] CDS liability was.”89
He further told the FCIC, “At the simplest level, . . . an organization like OTS can-
not supervise AIG, GE, Merrill Lynch, and entities that have worldwide offices. . . 
it’s like a gnat on an elephant — there’s no way.”90
     The Dodd-Frank Act may subject AIG to substantial additional Federal regu-
lation. The law abolished OTS and moved supervision of savings and loan insti-
tutions to the OCC and supervision of their holding companies to the Federal
Reserve. The Federal Reserve could take over regulating AIG if it recognizes
AIG as a savings and loan holding company under the Home Owners’ Loan Act.
However, AIG anticipates that it will not be a savings and loan holding company
until Treasury holds less than 50% ownership interest.91 The Dodd-Frank Act also
set up a new framework for supervising nonbank financial companies designated
as systemically important financial institutions because of the role they play in the
financial system. SIFIs face more stringent capital and liquidity requirements and
annual stress tests, among other things. They also will be required to follow height-
ened corporate governance requirements and to prepare “living wills” — plans on
how they could be unwound if they fail.
     Nonbank SIFI designations have not yet been made and there is no stated
time frame to do so. On April 3, 2012, the Financial Stability Oversight Council
(“FSOC”), a collection of regulators responsible for rule-making in this area,
issued a final rule effective May 11, 2012, with the criteria and process it will
14   special inspector general I troubled asset relief program




                                            use to decide which large U.S. nonbank financial firms are designated as SIFIs.
                                            A nonbank financial institution may be designated a SIFI if it is predominantly
                                            engaged in financial activities. FSOC currently is analyzing the potential systemic
                                            importance of individual companies. However, before any SIFI determination can
                                            be made, the Federal Reserve Board must define what it means for a company to
                                            be “predominantly engaged in financial activities.”
                                                If FSOC designates AIG as a nonbank SIFI, AIG would be subject to Federal
                                            Reserve examination, enforcement, and supervision. AIG’s senior managers expect
                                            AIG to be named a SIFI, and they say that AIG has begun preparing for this desig-
                                            nation. “People say, ‘Are you worried about being a SIFI? Are you worried about the
                                            Federal Reserve?’ No. I welcome it,” Benmosche said at an insurance conference
                                            earlier this year.92 Peter Hancock, the head of AIG’s Chartis insurance unit, told a
                                            conference last December, “We’ve done more to de-lever our balance sheet and be-
                                            come Fed-ready, because we expect to be regulated by the Fed, than I think almost
                                            any other large insurance company.”93
                                                While the Dodd-Frank Act’s nonbank SIFI designation process was intended to
                                            give regulators better oversight of nonbank financial players that have crucial roles
                                            in the nation’s financial system and subject those designated entities to prudential
                                            standards promulgated by the Federal Reserve, the designation of a company as a
                                            SIFI is only the first step in a host of challenges Federal regulators face in imple-
                                            menting financial reform. If AIG is designated as a SIFI or recognized as a savings
                                            and loan holding company, the Federal Reserve, as its primary supervisor, will face
                                            enormous examination, enforcement, supervision, and logistical challenges in its
                                            responsibility to provide comprehensive and effective oversight. This is particularly
                                            true as it relates to risk, given AIG’s history.
                                                 Although AIG has made changes while in TARP, it remains one of the world’s
                                            largest companies, with hundreds of subsidiaries in more than 130 countries.
                                            Comprehensive and effective oversight of AIG would require the Federal Reserve
                                            to have extensive expertise with and knowledge of a wide array of nonbanking
                                            businesses and their risks, including AIG’s insurance operations, aircraft leasing
                                            business, its mortgage guaranty, securities lending, and other derivatives trading
                                            business.
                                                One vital concern for AIG (and any future regulator of AIG) is determining
                                            the proper level of risk to make a profit while minimizing the chance of failure.
                                            Although this is a continuing challenge for all companies, given its history, risk is
                                            of particular concern for AIG. In its 2011 annual report, AIG said, “Risk manage-
                                            ment is a key element of AIG’s approach to corporate governance.”94 This state-
                                            ment is not much different from statements made before the company crashed. In
                                            its 2007 annual report, the company said, “AIG believes that strong risk manage-
                                            ment practices and a sound internal control environment are fundamental to its
                                            continued success and profitable growth.”95 And until shortly before the company
                                            imploded, AIG executives denied there was much, if any, risk from its derivatives
                                            portfolio. Even during an August 2007 investor presentation in which AIG revealed
                                            that AIGFP had $79 billion in exposure to super-senior multi-sector CDOs (largely
                                            U.S. subprime mortgages), and that the AIG securities lending portfolio included
                                                                                 quarterly report to congress I July 25, 2012   15




$28.7 billion in sub-prime RMBS, accompanying slides emphasized that risk was
“extremely remote.”96 On a telephone call with analysts that day, Joseph Cassano,
then the head of AIGFP, said, “It is hard for us, without being flippant, to even see
a scenario within any kind of realm or reason that would see us losing $1 in any of
those transactions.”97 Within a year, the bottom dropped out.
     The decisions regulators make today about AIG will be crucial to protect-
ing taxpayers in the future. Proper and effective supervision of AIG is just one of
the many challenges regulators will likely face in the months and years to come.
Effective, comprehensive, and rigorous regulation of AIG is vital to ensure that his-
tory does not repeat itself and that taxpayers are protected.
16            special inspector general I troubled asset relief program



     1.	    Treasury, Section 105(a) Report, 7/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/June%20
            2012%20Monthly%20Report%20to%20Congress.pdf, accessed 7/13/2012.
     2.	    AIG, 10-K, 2/28/2008, p. 130, www.sec.gov/Archives/edgar/data/5272/000095012308002280/0000950123-08-002280-index.htm, accessed
            6/28/2012; AIG, 10-Q, 5/3/2012, p. 3, www.sec.gov/Archives/edgar/data/5272/000104746912005310/a2209238z10-q.htm, accessed 6/28/2012.
     3.	    AIG, 10-K, 2/23/2012, p. 47, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
     4.	    SNL Financial; BestWeek, “Top Insurers Ranked by Assets, Net Premiums,” January 2012, www.ambest.com/bestweek/marketreports/BW_
            WorldsLargest.pdf, accessed 7/18/2012.
     5.	    AIG, 10-K, 2/23/2012, pp. 397-401, www.aigcorporate.com/investors/2012_February/2011_10K.pdf, accessed 6/28/2012; AIG, 10-K, 2/28/2008,
            pp. 215-220, www.sec.gov/Archives/edgar/data/5272/000095012308002280/0000950123-08-002280-index.htm, accessed 6/28/2012.
     6.	    Dodd-Frank Wall Street Reform and Consumer Protection Act, Public Law 111-203, 7/21/2010, www.gpo.gov/fdsys/pkg/PLAW-111publ203/pdf/
            PLAW-111publ203.pdf, accessed 6/28/2012.
     7.	    SIGTARP, October 2009 Quarterly Report to Congress, 10/21/2009, p. 138, www.sigtarp.gov/Quarterly%20Reports/October2009_Quarterly_
            Report_to_Congress.pdf, accessed 6/25/2012.
     8.	    AIG, Press Release, “M.R. Greenberg to Retire From AIG,” 3/28/2005, www.aigcorporate.com/newsroom/index.html, accessed 6/28/2012.
     9.	    AIG, Press Release, “AIG Nears Completion of Internal Review; Will Restate Results,” 5/1/2005, www.aigcorporate.com/newsroom/index.html,
            accessed 6/28/2012.
     10.	   SIGTARP, October 2009 Quarterly Report to Congress, 10/21/2009, p. 140, www.sigtarp.gov/Quarterly%20Reports/October2009_Quarterly_
            Report_to_Congress.pdf, accessed 6/25/2012.
     11.	   Testimony of Rodney Clark, Managing Director, Ratings Services, Standard & Poor’s Financial Services LLC, before the U.S. House of
            Representatives Subcommittee on Capital Markets and Government Sponsored Entities, 3/18/2009, www.house.gov/apps/list/hearing/
            financialsvcs_dem/rodney031809.pdf, accessed 6/21/2012.
     12.	   AIG, 10-K, 3/31/1995, p. 21, www.sec.gov/Archives/edgar/data/5272/0000950123-95-000843.txt, accessed 6/28/2012; AIG, 10-K, 2/28/2008, p.
            34, www.sec.gov/Archives/edgar/data/5272/000095012308002280/y44393e10vk.htm, accessed 6/28/2012; AIG, 10-K, 5/31/2005, p. 24, www.
            sec.gov/Archives/edgar/data/5272/000095012305006884/y03319e10vk.htm, accessed 6/28/2012; AIG, 10-K, 3/16/2006, p. 74, www.sec.gov/
            Archives/edgar/data/5272/000095012306003276/y16349e10vk.htm, accessed 6/28/2012; AIG, 10-K, 3/31/2003, p. 63, www.sec.gov/Archives/
            edgar/data/5272/000095012303003570/y65998e10vk.txt, accessed 6/28/2012; AIG, 10-K, 3/30/2000, p. 45, www.sec.gov/Archives/edgar/
            data/5272/0000950123-00-002999.txt, accessed 6/28/2012; AIG, 10-K, 3/28/1997, p. 38, www.sec.gov/Archives/edgar/data/5272/0000950123-
            97-002720.txt, accessed 6/28/2012.
     13.	   Federal Reserve, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Secured Credit Facility Authorized for
            American International Group, Inc. on September 16, 2008,” www.federalreserve.gov/monetarypolicy/files/129aigseccreditfacility.pdf, accessed
            6/21/2012; AIG, “About AIG: September 2008: Initial Investment from the U.S. Government,” www.aigcorporate.com/aboutaig/sept_2008.html,
            accessed 6/21/2012.
     14.	   AIG, 10-K, 3/2/2009, p.3, www.sec.gov/Archives/edgar/data/5272/000095012309003734/y74794e10vk.htm, accessed 6/28/2012.
     15.	   AIG, 10-K, 3/2/2009, p.4, www.sec.gov/Archives/edgar/data/5272/000095012309003734/y74794e10vk.htm, accessed 6/28/2012.
     16.	   Congressional Oversight Panel, “June Oversight Report: The AIG Rescue, Its Impact on Markets, and the Government’s Exit Strategy,”
            6/10/2010, p. 7, http://cybercemetery.unt.edu/archive/cop/20110401232818/http://cop.senate.gov/reports/library/report-061010-cop.cfm,
            accessed 6/28/2012.
     17.	   Financial Crisis Inquiry Commission, “The Financial Crisis Inquiry Report,” 1/27/2011, p. 352, http://fcic.law.stanford.edu/report, accessed
            6/28/2012.
     18.	   FRBNY, “Actions Related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 6/21/2012.
     19.	   Paulson, Henry M. Jr., “On the Brink: Inside the Race to Stop the Collapse of the Global Financial System,” Business Plus/Hatchette Book
            Group, 2011, p. 236.
     20.	   AIG, 10-Q, 8/6/2008, p. 2, www.sec.gov/Archives/edgar/data/5272/000095012308008949/y59464e10vq.htm, accessed 6/28/2012.
     21.	   AIG, 10-K, 2/23/2012, pp. 197-198, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
     22.	   AIG, “Management Leadership,” no date, www.aigcorporate.com/corpgovernance/exec_management.html, accessed 6/21/2012.
     23.	   AIG, DEF 14A Proxy Statement, 4/4/2008, pp. 7-9, www.sec.gov/Archives/edgar/data/5272/000093041308002228/c52434_def14a.htm,
            accessed 6/28/2012.
     24.	   Taub, Jennifer S., “Case Study: American International Group,” Corporate Governance, 5th edition, Robert A.G. Monks and Nell Minow, John
            Wiley & Sons, Inc., 2011.
     25.	   AIG, DEF 14A Proxy Statement, 4/5/2002, pp. 1-5, www.sec.gov/Archives/edgar/data/5272/000095011702000783/a32186.txt, accessed
            6/28/2012.
     26.	   AIG, DEF 14A Proxy Statement, 6/5/2009, p. 18, www.sec.gov/Archives/edgar/data/5272/000093041309003116/c57286_def14a.
            htm#corporate1, accessed 6/28/2012.
     27.	   AIG, Press Release, “Steve Miller Succeeds Harvey Golub as AIG Board Chairman,” 7/14/2010, www.aigcorporate.com/newsroom/index.html,
            accessed 6/19/2012; Bloomberg, Executive Profile-Robert S. Miller, Jr., no date, http://investing.businessweek.com/research/stocks/private/
            person.asp?personId=505207&privcapId=5547878&previousCapId=250388&previousTitle=AMERICAN%20INTERNATIONAL%20GROUP,
            accessed 6/18/2012.
     28.	   AIG, DEF 14A Proxy Statement, 6/5/2009, Appendix A, www.sec.gov/Archives/edgar/data/5272/000093041309003116/c57286_def14a.
            htm#corporate1, accessed 6/28/2012.
     29.	   AIG, DEF 14A Proxy Statement, 4/5/2012, www.sec.gov/Archives/edgar/data/5272/000119312512150889/d323130ddef14a.htm#tx323130_21,
            accessed 6/28/2012.
     30.	   AIG, DEF 14A Proxy Statement, 4/5/2012, pp. 12-18, www.sec.gov/Archives/edgar/data/5272/000119312512150889/d323130ddef14a.
            htm#tx323130_21, accessed 6/28/2012.
     31.	   SIGTARP, April 2010 Quarterly Report to Congress, 4/20/2010, p. 91, www.sigtarp.gov/Quarterly%20Reports/April2010_Quarterly_Report_to_
            Congress.pdf, accessed 6/25/2012.
                                                                                         quarterly report to congress I April 25, 2012              17


32.	   AIG, Press Release, “U.S. Treasury Appoints Two Directors to AIG Board of Directors,” 4/1/2010, www.aigcorporate.com/newsroom/index.html,
       accessed 6/6/2012.
33.	   AIG, Press Release, “AIG Announces the Resignation of Donald Layton from the AIG Board of Directors,” 5/10/2012, www.aigcorporate.com/
       newsroom/index.html, accessed 6/7/2012.
34.	   AIG, Press Release, “Morris W. Offit Elected to AIG Board of Directors,” July 11, 2012, www.aigcorporate.com/newsroom/index.html, accessed
       7/13/2012.
35.	   AIG, 10-K, 2/28/2008, p. 103, www.sec.gov/Archives/edgar/data/5272/000095012308002280/0000950123-08-002280-index.htm, accessed
       6/28/2012.
36.	   AIG, 10-K, 2/24/2011, p. 130, www.sec.gov/Archives/edgar/data/5272/000104746911001283/0001047469-11-001283-index.htm, accessed
       6/28/2012.
37.	   AIG, 10-K, 3/2/2009, p. 250, www.sec.gov/Archives/edgar/data/5272/000095012309003734/y74794e10vk.htm, accessed 6/28/2012.
38.	   FRBNY, Press Release, “New York Fed to Sell Maiden Lane II Assets in Competitive Process over Time,” 3/3/2011, http://newyorkfed.org/
       newsevents/news/markets/2011/an110330.html, accessed 6/21/2012.
39.	   SIGTARP, “Factors Affecting Efforts to Limit Payments to AIG Counterparties,” 11/17/2009, p. 29, www.sigtarp.gov/Audit%20Reports/Factors_
       Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 6/21/2012.
40.	   SIGTARP, “Factors Affecting Efforts to Limit Payments to AIG Counterparties,” 11/17/2009, p. 5, www.sigtarp.gov/Audit%20Reports/Factors_
       Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 6/21/2012; FRBNY, Maiden Lane Transactions, no date, www.
       newyorkfed.org/markets/maidenlane.html, accessed 7/13/2012.
41.	   SIGTARP, “Factors Affecting Efforts to Limit Payments to AIG Counterparties,” 11/17/2009, p. 25, www.sigtarp.gov/Audit%20Reports/Factors_
       Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 6/21/2012, accessed 6/21/2012.
42.	   AIG, 10-K, 2/24/2011, p. 20, www.sec.gov/Archives/edgar/data/5272/000104746911001283/0001047469-11-001283-index.htm, accessed
       6/28/2012; AIG, 10-K, 2/28/2008, p. 13, www.sec.gov/Archives/edgar/data/5272/000095012308002280/0000950123-08-002280-index.htm,
       accessed 6/28/2012.
43.	   AIG, Letter to Shareholders, March 2010, p. 1, www.aigcorporate.com/investors/AIG09AR-CEO.pdf, accessed 6/27/2012.
44.	   AIG, Letter to Shareholders, March 2010, p. 2, www.aigcorporate.com/investors/AIG09AR-CEO.pdf, accessed 6/27/2012.
45.	   AIG, Press Release, “AIG to Sell ALICO to MetLife for Approximately $15.5 Billion,” 3/8/2010, www.aigcorporate.com/newsroom/index.html,
       accessed 6/28/2012.
46.	   AIG, Press Release, “AIG to Sell AIA to Prudential for Approximately $35.5 Billion,” 3/1/2010, www.aigcorporate.com/newsroom/index.html,
       accessed 6/21/2012.
47.	   AIG, 10-K, 2/23/2012, p. 63, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
48.	   AIG, 10-K, 2/23/2012, pp. 4-5, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
49.	   AIG, 10-K, 2/23/2012, p. 233, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
50.	   AIG, 10-K, 2/23/2012, pp. 240-241, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
51.	   AIG, 10-K, 2/23/2012, p. 74, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012; AIG, 10-
       K, 2/23/2012, p. 54, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
52.	   AIG, 10-K, 2/23/2012, p. 73, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
53.	   Property Casualty Insurers Association of America, Press Release, “Property Casualty Insurers’ Full-Year Results Deteriorated in 2011 as
       Catastrophe Losses Spiked,” 4/17/2012, http://test.pciaa.net/web/sitehome.nsf/lcpublic/220?opendocument, accessed 5/22/2012.
54.	   AIG, 10-K, 2/23/2012, p. 73, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
55.	   AIG, 10-Q, 5/3/2012, pp. 94 and 100, www.sec.gov/Archives/edgar/data/5272/000104746912005310/a2209238z10-q.htm, accessed 6/28/2012.
56.	   AIG, 10-K, 2/23/2012, p. 233, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
57.	   AIG, 10-K reports from 2007-2011.
58.	   AIG, 10-K, 2/23/2012, p. 19, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
59.	   For 2011, Chartis saw a 3.8% return, and SunAmerica saw a 5.7% return. AIG, 10-K, p. 19, 2/23/2012, www.sec.gov/Archives/edgar/
       data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
60.	   AIG, 10-K, 2/23/2012, p. 114, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
61.	   AIG, 10-K, 2/23/2012, p. 114, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
62.	   Bloomberg LLC, “AIG wagers on subprime, betting second time is different,” 5/16/2012, www.bloomberg.com/news/print/2012-05-16/aig-
       wagers-on-subprime-betting-second-time-different-mortgages.html, accessed 5/22/2012.
63.	   Bloomberg LLC, “AIG wagers on subprime, betting second time is different,” 5/16/2012, www.bloomberg.com/news/print/2012-05-16/aig-
       wagers-on-subprime-betting-second-time-different-mortgages.html, accessed 5/22/2012; AIG, 10-Q, 5/3/2012, p. 31, www.sec.gov/Archives/
       edgar/data/5272/000104746912005310/a2209238z10-q.htm, accessed 6/28/2012; AIG, 10-K, 2/24/2011, p. 131, www.sec.gov/Archives/edgar/
       data/5272/000104746911001283/0001047469-11-001283-index.htm, accessed 6/28/2012.
64.	   Morningstar, “American International Group Inc. Q1 2012 Earnings Call Transcript,” 5/4/2012, www.morningstar.com/earnings/38491641-
       american-international-group-incaig-q1-2012-earnings-call-transcript.aspx, accessed 6/26/2012; FRBNY, Press Release, “New York Fed Sells
       MAX CDO Holdings in Competitive Progress,” 4/26/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120426.html, accessed
       6/21/2012.
65.	   AIG, 10-K, 2/23/2012, p. 129, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
66.	   AIG, “First Quarter 2012 Results Conference Call Presentation,” 5/4/2012, p. 18, www.aigcorporate.com/investors/2012_May/1Q12_
       EarningsPresentation.pdf, accessed 6/21/2012.
67.	   International Swaps and Derivatives Association, “Exposures and Activity,” www.isdacdsmarketplace.com/exposures_and_activity/top_10_cds_
       positions#net_notional, accessed 6/21/2012.
68.	   U.S. House Committee on Oversight and Government Reform, testimony of Edward Liddy, 5/13/2009, p. 4, http://democrats.oversight.house.
       gov/images/stories/documents/20090512165421.pdf, accessed 6/21/2012.
69.	   Financial Times, “AIG drops entire derivatives portfolio sale plan,” 2/18/2010, www.ft.com/intl/cms/s/0/d38e7f9c-1c07-11df-a5e1-
       00144feab49a.html#axzz1wZhBOaCp, accessed 6/1/2012.
18            special inspector general I troubled asset relief program



     70.	   AIG, Peter Hancock biography, no date, www.aigcorporate.com/corpgovernance/management_Hancock.html, accessed 6/1/2012.
     71.	   AIG, “First Quarter 2012 Results Conference Call Presentation,” 5/4/2012, p. 18, www.aigcorporate.com/investors/2012_May/1Q12_
            EarningsPresentation.pdf, accessed 6/21/2012.
     72.	   AIG, “First Quarter 2012 Results Conference Call Presentation,” 5/4/2012, pp. 17-18, www.aigcorporate.com/investors/2012_May/1Q12_
            EarningsPresentation.pdf, accessed 6/21/2012.
     73.	   AIG, 10-K, 2/23/2012, p. 175, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
     74.	   AIG, 10-K, 2/23/2012, p. 13, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
     75.	   AIG, “Summary of AIGFP derivative positions as of September 30, 2011,” 9/30/2011, www.aigcorporate.com/restructuring/AIGFP.pdf, accessed
            6/1/2012; AIG, First Quarter 2012 Results Conference Call Presentation, 5/4/2012, p. 18, www.aigcorporate.com/investors/2012_May/1Q12_
            EarningsPresentation.pdf, accessed 6/21/2012.
     76.	   Stable Value Investment Association, “What Do You Need to Know about Stable Value Funds in Today’s Challenging Financial Environment?,”
            3/23/2009, http://stablevalue.org/help-desk/faq/, accessed 6/12/2012.
     77.	   AIG, “First Quarter 2012 Results Conference Call Presentation,” 5/4/2012, p.18, www.aigcorporate.com/investors/2012_May/1Q12_
            EarningsPresentation.pdf, accessed 6/21/2012.
     78.	   AIG, “First Quarter 2012 Results Conference Call Presentation,” 5/4/2012, p.18, www.aigcorporate.com/investors/2012_May/1Q12_
            EarningsPresentation.pdf, accessed 6/21/2012; Government Accountability Office, “The Government’s Exposure to AIG Following the
            Company’s Recapitalization,” 7/18/2011, pp. 56-58, www.gao.gov/new.items/d11716.pdf, accessed 6/1/2012.
     79.	   AIG, “First Quarter 2012 Results Conference Call Presentation,” 5/4/2012, p.18, www.aigcorporate.com/investors/2012_May/1Q12_
            EarningsPresentation.pdf, accessed 6/21/2012; Government Accountability Office, “The Government’s Exposure to AIG Following the
            Company’s Recapitalization,” 7/18/2011, pp. 53-54, www.gao.gov/new.items/d11716.pdf, accessed 6/1/2012.
     80.	   AIG, “First Quarter 2012 Results Conference Call Presentation,” 5/4/2012, p.18, www.aigcorporate.com/investors/2012_May/1Q12_
            EarningsPresentation.pdf, accessed 6/21/2012.
     81.	   AIG, 10-K, 2/23/2012, p. 175, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
     82.	   AIG, 10-Q, 5/3/2012, p. 46, www.sec.gov/Archives/edgar/data/5272/000104746911009000/a2206083z10-q.htm, accessed 6/22/2012.
     83.	   AIG, 10-K, 2/23/2012, p. 128, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
     84.	   AIG, 10-Q, 5/3/2012, p. 37, www.sec.gov/Archives/edgar/data/5272/000104746912005310/a2209238z10-q.htm, accessed 6/28/2012.
     85.	   AIG, 10-K, 2/28/2008, p. 101, www.sec.gov/Archives/edgar/data/5272/000095012308002280/0000950123-08-002280-index.htm, accessed
            6/28/2012.
     86.	   Financial Crisis Inquiry Commission, “The Financial Crisis Inquiry Report,” 1/27/2011, p. 350, http://fcic.law.stanford.edu/report, accessed
            6/28/2012.
     87.	   AIG, 10-K, 2/24/2011, p. 20, www.sec.gov/Archives/edgar/data/5272/000104746911001283/0001047469-11-001283-index.htm, accessed
            6/28/2012.
     88.	   Congressional Oversight Panel, “June Oversight Report: The AIG Rescue, Its Impact on Markets, and the Government’s Exit Strategy,”
            6/10/2010, pp. 21-22, http://cybercemetery.unt.edu/archive/cop/20110401232818/http://cop.senate.gov/reports/library/report-061010-cop.cfm,
            accessed 6/28/2012.
     89.	   Financial Crisis Inquiry Commission, “The Financial Crisis Inquiry Report,” 1/27/2011, p. 350, http://fcic.law.stanford.edu/report, accessed
            6/28/2012.
     90.	   Financial Crisis Inquiry Commission, “The Financial Crisis Inquiry Report,” 1/27/2011, p. 351, http://fcic.law.stanford.edu/report, accessed
            6/28/2012.
     91.	   AIG, 10-K, 2/23/2012, pp. 21-22, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
     92.	   PropertyCasualty360, “Benmosche: Chartis Retaining Customers, Did Not Underprice Business,” 2/27/2012, www.propertycasualty360.
            com/2012/02/24/benmosche-chartis-retaining-customers-did-not-unde, accessed 6/12/2012.
     93.	   Bloomberg, “AIG Is ‘Fed-Ready’ Ahead of Expected Oversight, Hancock Says,” 12/7/2011, www.bloomberg.com/news/print/2011-12-07/aig-is-
            fed-ready-ahead-of-expected-oversight-hancock-says-1-.html, accessed 6/12/2012.
     94.	   AIG, 10-K, 2/23/2012, p. 158, www.sec.gov/Archives/edgar/data/5272/000104746912001369/a2207458z10-k.htm, accessed 6/28/2012.
     95.	   AIG, 10-K, 2/28/2008, p. 112, www.sec.gov/Archives/edgar/data/5272/000095012308002280/0000950123-08-002280-index.htm, accessed
            6/28/2012.
     96.	   AIG, “Residential Mortgage Presentation,” 8/9/2007, http://media.corporate-ir.net/media_files/irol/76/76115/REVISED_AIG_and_the_
            Residential_Mortgage_Market_FINAL_08-09-07.pdf, accessed 7/18/2012.
     97.	   Financial Crisis Inquiry Commission, “The Financial Crisis Inquiry Report,” 1/27/2011, p. 268, http://fcic.law.stanford.edu/report, accessed
            6/28/2012.
SIGTARP Hotline
If you are aware of fraud, waste, abuse, mismanagement, or misrepresentations associated
with the Troubled Asset Relief Program, please contact the SIGTARP Hotline.
By Online Form:	       www.SIGTARP.gov
By Phone:	             Call toll free: (877) SIG-2009
By Fax:	               (202) 622-4559
By Mail:	              Hotline: Office of the Special Inspector General
	                      for the Troubled Asset Relief Program
	                      1801 L Street., NW, 3rd Floor
	                      Washington, D.C. 20220




Press Inquiries
If you have any inquiries, please contact our Press Office:
	                     Troy Gravitt
	                     Director of Communications
	Troy.Gravitt@treasury.gov
	202-927-8940




Legislative Affairs
For Congressional inquiries, please contact our Legislative Affairs Office:
	                    Joseph Cwiklinski
	                    Director of Legislative Affairs
	Joseph.Cwiklinski@treasury.gov
	202-927-9159




Obtaining Copies of Testimony and Reports
To obtain copies of testimony and reports, please log on to our website at www.SIGTARP.gov.




                                                          C
                                                     INSPE TOR GEN
                                                AL                E
                                           CI
                                                                            RA
                                       E
                                     SP




                                                                                L
                                                                                M
                                    TRO




                                                                            RA




                                          LE
                                      UB




                                                                       OG




                                               DA                           R
                                                     S S E T R E LI E F P
